   COMPLIANCE INSPECTION
     AND EXAMINATION
       REFERRALS TO
       ENFORCEMENT

                   EXECUTIVE SUMMARY
We found that referrals of alleged deficiencies (in the compliance of the securities
laws) from the Compliance Inspection and Examination Program (Examination
Program) to the Enforcement Program were generally efficient and effective.
Several improvements could enhance the referral process including improving
communication with the Enforcement Program, the interested divisions (i.e., Market
Regulation, Investment Management, and Corporation Finance), and the alleged
violator.
During the audit, the Office of Compliance Inspections and Examinations (which has
oversight for the Examination Program) issued guidance that addressed many of our
recommendations. We commend them for their proactive efforts to improve the
Enforcement referral process.



                 SCOPE AND OBJECTIVES
Our audit objective was to determine whether referrals of alleged deficiencies (in the
compliance with the securities laws) from the Compliance Inspection and
Examination Program (Examination Program) to the Enforcement Program were
efficient and effective.
During the audit, we interviewed and surveyed Commission staff, visited three
regional offices, analyzed the broker-dealer (BD) and investment adviser (IA)
referrals from fiscal year 1998, and reviewed supporting data in the Commission’s
computer systems, among other procedures. We limited our analysis to BD and IA
referrals because they constitute most of the Enforcement referrals made.
The audit was performed from June 2000 to January 2001 in accordance with
generally accepted government auditing standards, with one exception. Because of
time constraints, we did not evaluate the validity and reliability of data from
computer systems (e.g., STARS and NRSI) used in the audit. In our opinion,
detailed testing of these computer systems would most likely not have materially
                                                                                      2



affected our findings, in part because much of the data we used was confirmed with
knowledgeable Commission staff.



                            BACKGROUND
The Office of Compliance Inspections and Examinations (OCIE) and the field offices
administer the Examination Program. Of the approximate 713 staff in the program,
106 are in OCIE, with the remainder assigned to the field offices. The staff perform
approximately 650 BD and 1,450 IA examinations each year, besides other types of
examinations (e.g., Investment Companies, Transfer Agents, Self-Regulatory
Organizations, etc.).
Approximately, 20% of BD and 5% of IA examinations result in Enforcement
referrals. Most of these referrals come from cause examinations (i.e., the
examination was triggered by an apparent problem).
An examination can have one of three possible outcomes, which may not be mutually
exclusive. These are:
   •   The staff issue a letter to the examined entity, indicating that no deficiencies
       were identified;
   •   They issue a deficiency letter to the entity describing alleged deficiencies, and
       require the entity to take corrective actions and submit a written response
       describing the actions; and
   •   They refer serious alleged deficiencies to the Enforcement Program or other
       entity (e.g., state regulator, self-regulatory organization (SRO)) for
       investigation.
In addition, the staff may take other steps to enhance a securities firm’s compliance.
These include:
   •   They discuss minor alleged deficiencies with the entity during an exit
       interview; and
   •   They initiate a conference call between senior Commission officials and the
       entity when the alleged deficiencies are more serious than those typically
       included in a deficiency letter, but do not warrant an Enforcement referral.


An Enforcement referral is usually made to enforcement staff in the same office.
The enforcement staff then decides whether to investigate the matter, and if the
investigation identifies significant violations, they will recommend an action to the
Commission. The decision to recommend an action is partly based on input from the
interested division (i.e., OCIE, Market Regulation, Investment Management, or
Corporation Finance).
In March 1998, we issued an audit report (No. 254) on the Examination Program.
That audit identified several issues related to the referral process, which we
followed-up in this audit.



EXAMINATION REFERRALS (AUDIT 322) JUNE 28, 2001
                                                                                       3




                          AUDIT RESULTS
We found that referrals of alleged deficiencies from the Compliance Inspection and
Examination Program to the Enforcement Program were generally efficient and
effective. In fiscal year 1998, most BD and IA referrals (about 78%) resulted in an
Enforcement investigation. With respect to the referrals that did not result in an
investigation, the Enforcement staff indicated that their decisions were based on
considerations of prosecutorial discretion. Thus, referrals were rejected because
either there were higher priority cases, or other similar factors were present which
caused the Enforcement staff to decline to pursue the matter.
The Examination and Enforcement Programs generally believe that the referral
process is working well. We identified several improvements to enhance the referral
process. OCIE has already issued guidance addressing many of our
recommendations. During the audit, OCIE also evaluated selected BD referrals
from fiscal years 1998 and 1999. We commend them for their proactive efforts to
improve the referral process.


COMMUNICATION OF EXAMINATION FINDINGS

To The Enforcement Program
During our prior audit, some Examination staff stated that communication between
the Examination and Enforcement Programs could be improved. Examination and
Enforcement Program staff have made efforts to improve communication. For
instance, Enforcement staff have spoken to examiners at training conferences
describing the characteristics of a good Enforcement referral. Also according to
OCIE and the Division of Enforcement, they believe that senior management from
both programs have improved the level and frequency of their communication with
each other in recent years.
Early communication with Enforcement about a potential referral appears desirable,
since the Enforcement staff would be able to communicate their concerns to
examiners and be more familiar with the case if it is eventually referred. According
to Examination and Enforcement staff, if a significant alleged deficiency is
discovered during the examination fieldwork, the Examination staff will
immediately inform Enforcement. Other possible deficiencies may take more time to
detect and analyze. In these instances, the Examination staff will generally make
the referral after the examination is complete.
During the audit, we analyzed whether there is any correlation between early
communication with Enforcement and acceptance of a referral for investigation. We
reviewed all of the BD and IA referrals from fiscal year 1998. We determined when
initial discussions with Enforcement were held, and how often the referral resulted
in an investigation.




EXAMINATION REFERRALS (AUDIT 322) JUNE 28, 2001
                                                                                                        4



There were 42 referrals that were rejected (i.e., did not result in an investigation)
and 145 referrals that were investigated. 1 Communication after the examination
fieldwork occurred in 34 of the 42 rejected referrals (81%). However, communication
after the examination fieldwork occurred in only 64 of the 145 investigated referrals
(44%). We did not analyze whether the timing of the initial communication was
correlated to the type of alleged deficiency.
While we cannot definitely conclude that early communication causes a higher
acceptance rate, we believe that they are correlated. Therefore, we concur with
OCIE management that the Examination staff should communicate with
Enforcement staff as early as reasonably possible when making a referral.

          Recommendation A
          OCIE should remind Examination staff both in OCIE and in the field offices
          of the importance of effective early communication with Enforcement staff.
In August 1998, OCIE issued guidance to Examination staff in OCIE and the field
offices, stating that early communication with Enforcement staff is important,
especially if the alleged deficiency is ongoing. The guidance indicated that early
communication should improve the referral process because Enforcement could
request that examiners obtain certain documents or ask particular questions prior to
completing the examination. It also suggested that if the Enforcement staff rejects a
referral from the Examination staff, efforts should be made, where appropriate (e.g.,
lack of resources), to ascertain whether another Commission office, SRO, or State
Security Regulator might be interested in the referral. If the referral is declined for
other reasons, the guidance suggests that other steps should be taken to resolve the
matter (e.g., meeting with the registrant’s senior management, asking the registrant
to employ an outside consultant, etc.).

To The Interested Divisions
We analyzed whether early communication between the Examination Program and
the interested divisions2 (ID) makes an Enforcement referral more likely to be
investigated. Unlike the early communication with Enforcement (see above), we
found no relationship between early communication with the ID and whether the
referral was investigated.
Nevertheless, Market Regulation and Investment Management believe that they
should be involved early in the Enforcement referral process, especially if the
referral involves interpretation of rules or policy. The ID can suggest legal theories
to the Enforcement staff, recommend whether the alleged deficiency warrants a

1   There were a total of 191 referrals of which 139 were BD and 52 were IA. Forty-two of the referrals
    were rejected while 145 were investigated. The number of rejected referrals and investigations does
    not equal 191 because one referral was subsequently not considered a formal referral by the
    Examination staff in OCIE and the field offices, and there are currently (according to NRSI as of
    June 28, 2001) three referrals that are in the preliminary stage (i.e., MUI). Thus, we are unsure
    whether these referrals will be rejected or investigated.
2   An interested division is the Division that is primarily responsible for the rulemaking in a specific
    aspect of the securities industry. For example, the Division of Investment Management is
    responsible for rulemaking, issuing interpretative guidance, etc for Investment Advisors.



EXAMINATION REFERRALS (AUDIT 322) JUNE 28, 2001
                                                                                      5



referral, etc. The Division of Enforcement indicated that it prefers early examiner
and/or Enforcement consultation with the ID so that potential problems are
identified. The Commission’s approval of a recommended enforcement action often
is significantly influenced by the ID’s views. Therefore, the IDs need to provide
timely, consistent, and material comments that represent the views of the senior
managers of the IDs as soon as possible. Early consultation with an ID should help
prevent spending resources on investigations that the ID does not support.

       Recommendation B
       OCIE should instruct the Examination staff in OCIE and the field offices to
       consult, when appropriate, with the IDs as early as possible to obtain their
       views.
In August 1998, OCIE issued guidance that stated that the Examination staff in
OCIE and the field offices should discuss novel or unique issues of law as soon as
possible with OCIE and with the IDs, and seek their assurance that if the alleged
deficiency can be proven, they would support the action. OCIE also recommended
that the examination staff provide copies of examination reports to the IDs that
involve novel, complex, or unique issues.

To The Entity Examined
During our prior audit, some Examination staff in the field offices stated that when
an Enforcement referral is made, the alleged deficiency is not communicated to the
entity that was examined. However, the entity could guess the nature of the alleged
deficiency based on the documents requested or questions asked during the
examination. Communicating the alleged deficiency to the entity can help obtain
corrective action sooner and protect investors.
In August 1998, OCIE issued guidance on communicating alleged deficiencies to the
entity. It stated that the preference was to communicate all deficiencies to the
registrant so that prompt corrective action could be implemented. It further stated
that Examination staff in OCIE and the field offices should determine the
Enforcement staff’s preference on communication, based on the referral’s nature,
and that in some situations, such as where the registrant may destroy books and
records, funds may be dissipated, or emergency Enforcement action is likely, a
deficiency letter should not be sent.
We found that the field offices have different procedures for communicating the
alleged deficiencies to the entity when an Enforcement referral has already been
made. Some offices include the deficiencies in a deficiency letter in these situations;
others do not.

       Recommendation C
       The Division of Enforcement, in consultation with OCIE and the field offices,
       should provide general advice to their respective staffs as to when it may not
       be appropriate to inform the entity of alleged deficiencies uncovered during
       examinations. As these decisions are often based on a number of variables



EXAMINATION REFERRALS (AUDIT 322) JUNE 28, 2001
                                                                                    6



       unique to a particular situation, however, the approach to be used in a
       specific matter should still be determined on a case-by-case basis.


MONITORING ENFORCEMENT REFERRALS
Our prior audit recommended improvements in the Examination Program’s
monitoring of Enforcement referrals. OCIE concurred, and stated that the new
STARS system (“Super Tracking And Reporting System”) would enhance
Enforcement referral tracking.
However, Examination staff must still obtain status information from the
Enforcement staff, rather than directly from STARS. OCIE has asked the Office of
Information Technology (OIT) to interface STARS with Enforcement’s CATS2000
system. Nevertheless, Enforcement staff should regularly discuss the status of
referrals with the Examination staff. OCIE and senior examination management
officials in the field offices need timely information about whether referrals are
accepted, why they are rejected, whether the referrals result in Enforcement actions,
etc. in order to evaluate the effectiveness of the Examination Program.
Also, Examination staff do not generally record in STARS information as to why a
referral was rejected or an investigation closed without action. This makes
monitoring Enforcement referrals more difficult. Moreover, STARS does not provide
a periodic report on rejected Enforcement referrals or investigations closed without
an action. Such a report (or similar technique) would alert Examination staff, so
they could possibly take prompt relevant action (e.g., refer an alleged deficiency to
an SRO, state securities commission, or another appropriate field office).

       Recommendation D
       OCIE should continue to work with OIT and the Division of Enforcement to
       establish an interface between STARS and CATS2000 or an effective
       alternative (e.g., the Division of Enforcement could provide the Examination
       Program with CATS2000 reports). Timely information is necessary for OCIE
       and senior examination management officials in the field offices to evaluate
       the effectiveness of the Examination Program.

       Recommendation E
       OCIE and the Division of Enforcement, in consultation with the field office
       heads, should develop a generic “check the box” data field in STARS that
       would reflect very basic information regarding the rejection of the referral.
       This should assist OCIE and senior examination management officials in the
       field offices in their efforts to monitor the status and trends in Enforcement
       referrals. Nevertheless, Enforcement staff should still timely communicate
       their reasons for rejecting referrals.




EXAMINATION REFERRALS (AUDIT 322) JUNE 28, 2001
                                                                                      7



     Recommendation F
     OCIE should develop a periodic STARS report (or other similar technique) of
     the status of all Enforcement referrals and referrals closed without action so
     that the Examination staff can take prompt action, if appropriate.




EXAMINATION REFERRALS (AUDIT 322) JUNE 28, 2001
